                               u.s. SMALL BUSINESS ADMINISTRAnON
                                   OFFICE OF INSPECTOR GENERAL
                                        AUDITING DIVlSION



                                                                         AUDIT REPORT
                                                                Issue Date: .' November 14,.2008
                                                                Number: 9-04


  To:           -Department of Treasury, Financial Management Service

                 [~;(. V                   J
  From:           Debra S. Ritt
                  Assistant Inspector General for Auditing

  Subject:        GFRS for Fiscal Year 2008

            Purs~t to OMB Circular A-136, Finandal Reporting Requirements (Circular A-136)
     and the Treasury Financial Manual, Part 2, Chapter 4700 (TFM 2-4700), attached is the
-, 	 Independent Auditprs' Report on Special-Purpose Financial Statements, issued by KPMG
     LLP on the Small Business Administration's (SBA) reclassified balance sheet as of
     September 2008 and 2007, and the reclassified statements of net costs and changes in net
     position and Federal trading partner note for the year then ended (hereinafter referred to as the
     special-purpose financial statements).

~~---l'he-attditor      found that the statements, including the Federal trading partner note,
  present fairly in all material respects, the financial position of SBA as of September 30, 2008
  and 2007. Also, the results of operations and the changes in net position for the period then
  ended are in accordance with U.S. generally accepted accounting principles, and the presentation
  is in confonnance with the requirements ofTFM 2-4700. As requested, the following documents
  are attached:

          (1)  reclassified fmancial statements;
          (2)  GF004F Trading Partner Summary Note Report;
          (3)  GFOO3G Closing Package Line Reclassification Summary Report;
          (4)  GF006 FR Notes Report;
          (5)  GFOO7 Other Data Report;
          (6)  Management Representation Letter on the Closing Package, including the Summary of
               Unadjusted Misstatement; and
           (7) Closing Package Independent Auditors' Report.

           We reviewed KPMG's report and related documentation and made necessary inquiries
   of their representatives. Our review was not intended to enable us to express, and we do not
   express, an opinion on the SBA's reclassified fmandaI statements or on conclusions about
internal control and the SBA's compliance with laws and regulations. However. our review
disclosed no instances where KPMG did not comply. in all materials respects, with Generally
Accepted Government Auditing Standards.

        We appreciate the cooperation and assistance ofSBA and KPMG representatives.
Should you or your staff have any questions, please contact me at (202) 205[<k -1..];Jr Jeffrey
R. Brindle, Director, Information TecMoloIDF and Financial Mariagement Group at
(202) 205·('1.)1..<1.-1

Attachments

Distribution:
Department of Treasury, Financial Management Services: financiaLreports@fms.treas.gov
Government Accountability Office: USCFS@gao.gov
OMB, Office ofFederal Financial Management: Statements@omb.eop.gov
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


Office of Inspector General
U.S. Small Business Administration:

We have audited the accompanying Closing Package Financial Statement Report – Balance Sheet of the
U.S. Small Business Administration (SBA) as of September 30, 2008 and 2007 the related Closing
Package Financial Statement Report – Statement of Net Cost and Statement of Changes in Net Position,
and the accompanying Financial Report (FR) Notes Report (except for the information contained in the
sections entitled “Threshold”) for the years then ended; the accompanying Additional Note No. 27; the
accompanying Trading Partner Summary Note Report – Balance Sheet as of September 30, 2008 and 2007
and the related Trading Partner Summary Note Report – Statement of Net Cost and Statement of Changes
in Net Position for the years then ended (hereinafter collectively referred to as the special-purpose financial
statements). These special-purpose financial statements are the responsibility of SBA’s management. Our
responsibility is to express an opinion on these special-purpose financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
special-purpose financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of SBA’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the special-purpose
financial statements and assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall special-purpose financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of complying
with the requirements of Chapter 4700 of the U.S. Department of the Treasury’s Treasury Financial
Manual (TFM), as described in Additional Note No. 27, solely for the purpose of providing financial
information to the U.S. Department of the Treasury and the U.S. Government Accountability Office
(GAO) to use in preparing and auditing the Financial Report of the U.S. Government, and are not intended
to be a complete presentation of SBA’s consolidated financial statements.

In accordance with TFM Chapter 4700, SBA prepared FR Notes Report Nos. 1 through 26, except for FR
Notes Report Nos. 10A, 16, 21, 23, and 24, which were not applicable to SBA. SBA included Additional
Note No. 27, to disclose other data not contained in the special-purpose financial statements, but which is
necessary to make the special-purpose financial statements more informative.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In our opinion, the special-purpose financial statements referred to above present fairly, in all material
respects, the financial position of SBA as of September 30, 2008 and 2007, and its net costs and changes in
net position for the years then ended in conformity with U.S. generally accepted accounting principles and
the presentation pursuant to the requirements of TFM Chapter 4700, as described in Additional Note
No. 27.

SBA also prepared Other Data Report Nos. 1 through 17, except for Other Data Report Nos. 3 through 8,
and 11 through 14, which were not applicable to SBA. The information included in the Other Data Report
Nos. 9 (except for the information in the section entitled “Threshold”), 10, 15, 16, and 17 is presented for
the purpose of additional analysis and is not a required part of the special-purpose financial statements, but
is supplementary information required by U.S. generally accepted accounting principles and the TFM
Chapter 4700. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this supplementary information, and accordingly, we express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the special-purpose financial
statements taken as a whole. The information included in the Other Data Report Nos. 1 and 2 is presented
for purposes of additional analysis and is not a required part of the special-purpose financial statements.
This information has been subjected to the auditing procedures applied in the audits of the special-purpose
financial statements and, in our opinion, is fairly stated in all material respects in relation to the special-
purpose financial statements taken as a whole

The information entitled “Threshold” in Other Data Report No. 9 and the information in the sections
entitled “Threshold” in FR Notes Data Report Nos. 2, 3, 4A, 9, 15, and 19; the information in the Closing
Package Line Reclassification Summary Report – Balance Sheet; and the information in the Closing
Package Line Reclassification Summary Report – Statement of Net Cost, and Changes in Net Position are
presented for purposes of additional analysis and are not a required part of the special-purpose financial
statements. This information has not been subjected to the auditing procedures applied in the audits of the
special-purpose financial statements, and accordingly, we express no opinion on it.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Reporting System to input
certain data as described in Additional Note No. 27. Except as discussed in this report, we express no
opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also issued our
reports dated November 14, 2008 on our consideration of SBA’s internal controls over financial reporting
and the results of our tests of its compliance with certain provisions of laws, regulations, contracts, and
grant agreements, and other matters that are required to be reported under Government Auditing Standards.
Those reports are an integral part of the audits of the consolidated balance sheets of SBA as of
September 30, 2008 and 2007, and the related consolidated statements of net cost, and changes in net
position, and combined statements of budgetary resources (hereinafter collectively referred to as
consolidated financial statements) for the years then ended, performed in accordance with Government
Auditing Standards and OMB Bulletin No. 07-04, and should be read in conjunction with this report in
considering the results of our audits of the special-purpose financial statements. Our audit of the
consolidated financial statements of SBA as of and for the year ended September 30, 2008 disclosed one
significant deficiency as described more fully in Exhibit I. Exhibit II contains management’s response. We
did not audit management’s response, and accordingly, we express no opinion on it.

Management is responsible for establishing and maintaining effective internal control. In planning and
performing our audit of the fiscal year 2008 special-purpose financial statements, we also considered
SBA’s internal control over financial reporting as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the special-purpose financial statements, but not for the purpose of
expressing an opinion on the effectiveness of SBA’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of SBA’s internal control over financial reporting.

Our consideration of internal control over financial reporting for special-purpose financial statements was
for the limited purpose described in the preceding paragraph of this section and would not necessarily
identify all deficiencies in the internal control over financial reporting for special-purpose financial
statements that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects SBA’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with U.S. generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of SBA’s special-purpose financial statements that is more than
inconsequential will not be prevented or detected by SBA’s internal control. A material weakness is a
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the special-purpose financial statements will not be prevented or
detected by SBA’s internal control.

In our fiscal year 2008 audit, we did not identify any deficiencies in internal control over financial
reporting for the special-purpose financial statements that we consider to be material weaknesses as
defined above.

Management is responsible for complying with laws, regulations (including TFM Chapter 4700), contracts,
and grant agreements applicable to SBA. As part of obtaining reasonable assurance about whether SBA’s
fiscal year 2008 special-purpose financial statements are free of material misstatement, we performed tests
of its compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions or on compliance
with TFM Chapter 4700 requirements was not an objective of our fiscal year 2008 audit of the special-
purpose financial statements, and accordingly, we do not express such an opinion.

The results of our tests of compliance with TFM Chapter 4700 disclosed no instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards or OMB Bulletin
No. 07-04.

                                     ______________________________

This report is intended solely for the information and use of SBA’s management, SBA’s Office of
Inspector General, U.S. Department of the Treasury, OMB, and GAO, in connection with the preparation
and audit of the Financial Report of the U.S. Government, and is not intended to be and should not be used
by anyone other than these specified parties.




November 14, 2008
                                                                                                        Exhibit I
                                      U.S. Small Business Administration
                                             Significant Deficiency



JDJrQdru:tion
The internal control deficiency discussed in this report and the U.S. Small Business Administration's (SBA)
progress toward correcting it are discussed in the context of SBA's organizational structure and its ability to
obtain funding to take corrective action. Exhibit I herein describes the control deficiencies, which collectively
resulted in the significant deficiency reported below, for the year ended September 30, 2008, and our
recommendations thereon. The status of prior year noncompliance and internal control deficiencies are reported
in Exhibits II and III, respectively, and SBA management's response is presented in Exhibit IV.

(1) Improvement Needed in Information Technology (II) Controls

During fiscal year 2008, we noted that SBA made progress in several areas in its efforts to address prior year IT 

internal control deficiencies. Despite these improvements, we also noted that deficiencies continued to exist in 

the areas of security access controls, software program changes, and end-user computing. 

Security Access Controls

 Integral to an organization's security program management efforts, technical security access controls for systems
.and applications should provide reasonable assurance that IT resources such as data files, application programs,
 and IT-related facilities/equipment are protected against unauthorized modification, disclosure, loss, or
~impairment.

A summary of the security access control deficiencies we identified during the fiscal year 2008 SBA financial 

statement audit follow: 





                       x.
                                                                                                                      1
 • 	 Neither ocro nor DCMS officials were able to ensure that security vulnerability scans were consistently 

                                                                                                                      1
     performed for two DCMS devices physically located at SBA Headquarters. This issue was identified by the 

     SBA Office of Inspector General (OIG) during the OIG's annual Federal Information Security Management 

     Act (FISMA) evaluation. 





                                                                                                                      ]
 • 	 The ocro does not appropriately control remote access authorizations. Specifically, remote access is not
     always requested and approved by the employees' supervisor, and can be requested by the employees


                                                       I-l
                                                                                                         Exhibit I
                                      U.S. Small Business Administration
                                              Significant Deficiency



   themselves. FlI.rther,e-.ll1ail approvalsJrom supervisors are not retained for all rem ote access requests. As a 

   result, controls over remote access authorization are more difficult to implement and validate. 


• 	 Validation of physical access to the data center at SBA's headquarters is not performed in accordance with
    SBA Standard Operating Procedure (SOP) 90-47.2, Automated Information Systems Security Program; which
    requires that a listing of authorized personnel for SBA computer facilities (e.g., server rooms) be maintained
    and access be revalidated at least quarterly.

• 	 OCIO management is unable to provide reasonable assurance that electronic media is sufficiently sanitized
    prior to disposal, in accordance with SOP 90-47.2. The SOP requires that (1) media must be sanitized prior to
    disposal by using one of the three approved methods: overwriting, degaussing, or destruction, and (2) a log of
    who completed the sanitation action must be maintained.

• 	 OCIO management was unable to provide reasonable assurance that access to the Loan Accounting System
    (LAS) and Local Area Network (LAN)/Wide Area Network (WAl\T) was periodically validated, in
    accordance with National Institute of Standards and Technology (NIST) guidance and SOP 90-47.2.

These issues are consistent with findings identified by the OIG in past years. In fact, the OIG has identified IT
security as a serious SBA management challenge since at least fiscal year 2000.

Despite these issues, SBA has made significant improvements in recent years in the area ofIT security, and there
is commitment from the SBA to continue further improvements continue.

Recommendations - Security Access Controls:

We recommend that the SBA OCIO coordinate with SBA program offices to:



        OIA
3. 	 Ensure the completion of more consistent vulnerability assessments to identifY and resolve potential 

                                                                                                                        J
     vulnerabilities, both within SBA offices and at service providers. 





                                                       1-2 

                                                                                                         Exhibit I
                                     U.S. Small Business Administration
                                             Significant Deficiency



4.	 Implement procedures to control the process for requesting and granting remote access and implement
    procedures to retain the appropriate approval evidence for tracking and validation.

5.	 Implement controls to comply with SOP 90-47.2 regarding the validation of physical access to the data
    center.

6.	 Implement controls to comply with SOP 90-47.2 regarding the sanitizing of media prior to disposal.

7.	 Retain documentation supporting the validation of LAS and LAN/WAN system access in accordance with
    NIST guidance and SOP 90-47.2.

Software Program Changes
The primary focus of an organization’s software change controls (which also encompasses patch management
and configuration management efforts) is on controlling the software changes made to systems and applications
in operation. Without such controls, there is a risk that security features could be inadvertently or deliberately
omitted or turned off, or that processing irregularities or malicious code could be introduced into the IT
environment.

A summary of the software program change control deficiencies we identified during the fiscal year 2008 SBA
financial statement audit follow:
•	 The Office of Disaster Assistance (ODA) was unable to provide evidence that baseline configurations for the
   DCMS were updated in a timely manner. This issue was also identified in fiscal year 2007, and SBA was still
   in the process of implementing corrective actions during fiscal year 2008.

•	 The OCIO was unable to provide evidence that (1) testing was performed for four of eight selected LAS
   software changes, (2) approvals were made for two of eight selected LAS software changes, and (3) testing
   and approvals were documented for three selected Electronic Transaction System (E-TRAN) software
   changes.

•	 The OCIO was unable to provide evidence that changes to the LAN/WAN were appropriately tracked,
   approved, and implemented.

•	 Ineffective software program change controls in the Joint Administrative and Accounting Management
   System (JAAMS) directly led to duplicate payments in the amount of $11,205,608.

•	 The Office of the Chief Financial Officer (OCFO) was unable to provide evidence that the software change
   requests were consistently completed for JAAMS and the Financial Reporting Information System (FRIS).

•	 The OCIO was unable to provide evidence that baseline configurations for LAS were updated in a timely
   manner. Documented baseline configurations enable the process of tracking and controlling software
   changes, especially as system security settings are changed.

•	 The Office of the Chief Operating Officer (OCOO), in conjunction with SBA program offices, has not
   documented segregation of duty procedures for LAS. Consequently, we could not validate that incompatible
   software change duties were appropriately segregated. This issue was also identified in fiscal year 2007, and
   SBA was still in the process of implementing corrective actions during fiscal year 2008.


                                                      I-3 

                                                                                                        Exhibit I
                                     U.S. Small Business Administration
                                             Significant Deficiency



Recommendations – Software Program Changes:

We recommend the following:

8.	 ODA management ensures the consistent application of controls and procedures to document the DCMS
    baseline configuration.

9.	 OCIO management consistently apply procedures for documenting software change testing results, testing
    approvals, and final approvals. Specifically, such procedures and controls need to be consistently applied for
    LAS, E-TRAN, and LAN/WAN.

10. OCFO management consistently apply procedures for documenting software change testing results, testing
    approvals, and final approvals for JAAMS and FRIS.

11. OCIO management ensures the consistent application of controls and procedures to document the LAS
    baseline configuration.

12. OCOO, in conjunction with program offices, document and implement segregation of duty policies and
    procedures for LAS.

End-User Computing
End-user computing tools/programs (e.g., spreadsheets and other user-developed programs) present the need for
a unique set of general control needs within an organization. By its nature, end-user computing brings the
development and processing of information systems closer to the user. End-user computing capabilities typically
include access to any end-user developed programs or objects, such as spreadsheets that contain critical
data/information. Critical data/information could include Personally Identifiable Information (PII) and financial
data. While this environment may not typically be subjected to the same level of rigor and structure as an IT
general controls environment, policies and procedures in this area are important to the overall IT environment.
We noted many SBA program offices, including the OCFO, Office of Capital Access, and Office of Human
Capital Management, have not implemented end-user computing policies and procedures set forth and provided
by the OCIO to identify, track, and protect end-user programs containing sensitive information.

Recommendations – End-User Computing:

13. We recommend that the OCIO reemphasize the importance to SBA program offices of controlling end-user
    programs containing sensitive data, such as PII and financial data, in accordance with OCIO policy.




                                                      I-4 

                                                                                               Exhibitll




g
 ~:\..fJ~
                                  U.s.   SM....LL eUSINESS AOMINISTRATION
•,..             •                         W.-.SHIHCTON, D:C. 2OC16

       '- 1 S
       ~/IT"'"




            CFO RespoDJe to Draft Audit Report on FY 2008 Financial Statements


            DATE:          November 14,2008

            TO;            Debra Ritt, Assistant IG for Auditing

            FROM:          Jennifer Main, Chief Financial Office'. ~~ l,U:t
            SUBJECT:       Draft Audit Report on FY 2008 Financial Statements

            The Small Business Administration is in receipt of the draft Independent Auditors'
            Report from KPMG that includes the auditor's opinion on the financial statements and
            review of the Agency's internal control over financial reporting and compliance with
            laws and regulations. The independcntaudit of the Agency's financial statements and
            relat~ processes is a core component of SBA's financial management program.


            We are delighted that the SBA has again received an unquali.£iedaudit opinion from the ,
            independent auditor with no reported material weaknesses. Additionally, the report
            found that SBA is in compliance with all applicable laws and regulations again this year.
            We believe these results accurately reflect the quality of the Agency's financial
            statements' and our improved accounting. budgeting and reporting processes. As you
            know, the SBA bas worked bard over the past several years to address the many findings
            from our independent auditors. Our core financial reporting data and processes have
            improved substantially and we are proud that the results of our efforts have been
            confirmed by the independent auditor.

            The audit report, bowever,includes a continuing significant deficiency in the SBA's
            information technology controls. While we appreciate the recognition in the report of the
            substantial progress the SBA has made in this area, we are nonetheless disappointed that
            the significant improvements we have made were not sufficient for the auditor to
            eliminate this finding. During FY 2008, the SBNs Office of the Chieflnformation
            Officer instituted several processes to strengthen infonnation security controls and took a
            multitude of corrective actions to address previous audit findings, closing 24 out of41
            previous findings. In addition, oero made significant progress on the SBA's
            Management Challenges reported by our Inspector General, scoring green on two key
            critical areas affecting service continuity controls and computer security training. We do.
            bowever, recognize that further improvements are needed in SBA's information
                                                                                  Exhibit II



technology controls, and the SBA is committed to taking all necessary action to eliminate
this significant deficiency in future audit reports.           .

We appreciate all of your efforts and those of your colleagues in the Office of the
Inspector General as well as those ofKPMG. The independent audit process continues to
provide us with new insights and valuable recommendations that will further enhance
SBA's financial management practices. We continue to be committed to excellence in
financial management and look forward to making more progress in the coming year.
